TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Interim Results of the 2007 Filing Season



                                           April 17, 2007

                              Reference Number: 2007-40-072




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   April 17, 2007


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Audit Report – Interim Results of the 2007 Filing Season
                                 (Audit # 200740040)

 This report presents selected information related to the Internal Revenue Service (IRS) filing
 season1 results as of March 10, 2007. The 2007 Filing Season presented a number of unique
 challenges for the IRS, including a one-time refund of the Telephone Excise Tax,
 implementation of the split refund option, and late passage of the law extending some tax
 deductions. We have a number of ongoing audits related to specific issues in this report and
 continue to provide IRS management with information on any areas of immediate concern
 throughout our audit process.

 Impact on the Taxpayer
 The filing season is critical because it is during this time that most individuals file their income
 tax returns and contact the IRS if they have questions about specific tax laws or filing
 procedures. The IRS estimates almost 136 million individual returns will be received. In this
 interim report, we did not identify any significant problems with the IRS’ processing of
 individual income tax returns during the 2007 Filing Season through March 10, 2007. In
 general, the IRS had accurately processed the returns received and timely issued refunds.

 Synopsis
 As of March 10, 2007, electronic filing had increased 4.9 percent compared to the same period in
 2006. While the number of taxpayers who electronically filed their tax returns from their home
 computers was up 8.1 percent this filing season, the number of taxpayers taking advantage of
 free online filing was down 5.5 percent from 2006.


 1
     The period from January through mid-April when most individual income tax returns are filed.
                                    Interim Results of the 2007 Filing Season




Implementation of the new Release of the Customer Account Data Engine, which will eventually
replace the IRS Master File System,2 was significantly delayed this filing season. The Customer
Account Data Engine is designed to post information to taxpayers’ accounts daily rather than
weekly, which will facilitate faster refunds to taxpayers and provide IRS employees more
up-to-date and accurate account information. The latest Release was to be placed into
production in mid-January 2007; however, it was delayed until the first week of March. Due to
delays in deployment of planned functionality, the IRS projection of tax returns that will be
posted on this system has been reduced from approximately 33 million to approximately
16 million to 19 million. The system had posted only about 1.2 million tax returns.
The number of claims for the one-time Telephone Excise Tax Refund has been lower than
expected, especially the number expected from taxpayers who were not otherwise required to file
tax returns. In addition, some of the claims that have been received are obviously incorrect or
potentially abusive. The IRS had received over 46,000 claims for amounts over $500. Some of
these excessive claims were so high in relation to the taxpayers’ incomes that the taxpayers
would have to have paid more than their total yearly incomes for long-distance or bundled
telephone services to justify the claims.
As of March 10, 2007, there had been limited taxpayer use of the option to split refunds into up
to three different bank accounts. We identified 52,696 taxpayers who had attached a Direct
Deposit of Refund to More Than One Account (Form 8888) to split refunds; this represents only
one-tenth of 1 percent of the direct deposits. The IRS had estimated 3.8 million Forms 8888
would be filed this year; however, it now estimates the actual number will be significantly lower.
Because of the late passage of the law that extended tax deductions for the educator expense,
tuition and fees, and State sales taxes, the IRS did not begin processing tax returns claiming these
deductions until February 3, 2007, to ensure the computer programming updates were working
as intended. The IRS stated this delay would not affect the vast majority of taxpayers because
only about 930,000 of the tax returns filed by February 1, 2006, had a claim for any of these
3 deductions. Our results indicated the IRS’ delay in processing returns with these deductions
had not caused any significant problems.
The Taxpayer Assistance Centers are walk-in sites where taxpayers can obtain answers to both
account and tax law questions, as well as receive assistance in preparing their tax returns. The
IRS plans to assist more than 6 million taxpayers in Fiscal Year 2007. It also expects to serve
more taxpayers this filing season because of the Telephone Excise Tax Refund. However, the
Taxpayer Assistance Centers had served 1.8 million taxpayers during this filing season.
The accuracy of answers given to taxpayers by assistors at the Taxpayer Assistance Centers has
improved since the 2002 Filing Season. The IRS is also implementing a new system to record
taxpayer contacts and evaluate the quality of the answers and service provided. This system has
been implemented in 126 Centers. The IRS will be unable to project the accuracy rates to all


2
 The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                                  2
                               Interim Results of the 2007 Filing Season




401 Centers until installation is completed, but the sample will provide a good indication of the
accuracy rates at 126 of the 401 Centers.
The Level of Service provided on the IRS toll-free telephone lines is slightly lower than
it was during the same period in the 2006 Filing Season. Through March 10, 2007, it was
83 percent compared to 84.2 percent for the same period last year. The IRS is taking
approximately 70 seconds longer to answer taxpayers’ calls when compared to the 2006 Filing
Season. The Average Speed of Answer is currently at 252 seconds (4.2 minutes); this appears to
have affected the rate at which taxpayers hang up, which increased 3.4 percentage points from
the 2006 Filing Season.
The IRS developed and implemented a Tactical Plan to increase each daily planned Level of
Service by 2 percent or 3 percent, to be in a better position to obtain the Fiscal Year 2007
82 percent planned Level of Service. For example, it planned for calls from taxpayers seeking
assistance relating to the Telephone Excise Tax Refund. As of March 10, 2007, these calls had
not materialized, and the IRS had seen only 2 percent of the planned number of calls. It has
taken steps to move assistors from the Telephone Excise Tax Refund applications to the account
applications where the demand is high.
The Volunteer Income Tax Assistance Program plays an increasingly important role in the IRS’
efforts to improve taxpayer service and facilitate participation in the tax system. We are in the
process of evaluating return preparation accuracy for this Program. As of March 10, 2007, we
had 18 tax returns prepared with a 56 percent accuracy rate, compared to the 39 percent accuracy
rate reported for the 2006 Filing Season. Volunteers did not always use the tools and
information available when preparing returns. We will report the final results in August 2007.
Taxpayers are continuing to increase their use of IRS.gov to obtain tax-related information. As
of the week ending March 10, 2007, the IRS had reported a 9.1 percent increase in the number of
visits to IRS.gov over the same period in the 2006 Filing Season. It had also reported a
21.9 percent increase in the number of taxpayers obtaining their refund information online via
the “Where’s My Refund” option found on IRS.gov.

Recommendation
This report is to provide interim information only; therefore, we made no recommendations in
the report. However, key IRS management officials reviewed it prior to issuance and agreed
with the facts and conclusions presented.
Copies of this report are also being sent to the IRS managers affected by the report information.
Please contact me at (202) 622-6510 if you have questions or Michael McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




                                                                                                    3
                                         Interim Results of the 2007 Filing Season




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Processing Tax Returns.................................................................................Page 5
          Providing Customer Service .........................................................................Page 9

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 17
          Appendix II – Major Contributors to This Report ........................................Page 20
          Appendix III – Report Distribution List .......................................................Page 21
        Interim Results of the 2007 Filing Season




             Abbreviations

CADE   Customer Account Data Engine
IRS    Internal Revenue Service
TAC    Taxpayer Assistance Center
TETR   Telephone Excise Tax Refund
VITA   Volunteer Income Tax Assistance
                                  Interim Results of the 2007 Filing Season




                                           Background

Preparing for the 2007 Filing Season
The filing season1 is critical for the Internal Revenue Service (IRS) because it is during this time
that most individuals file their income tax returns and contact the IRS if they have questions
about specific tax laws or filing procedures. The IRS estimates almost 136 million individual
income tax returns (more than 56 million paper and 79 million electronic) will be received. It
continues to experience substantial growth in electronic filing, and total volumes are projected to
increase 8.5 percent in Calendar Year 2007. Online-filed electronic returns continue to
experience the fastest growth among the electronic filing options available for individual
taxpayers.2
Before the filing season begins, the IRS must identify new tax law and administrative changes;
where possible, revise the various tax forms, instructions, and publications; and reprogram its
computer system to ensure returns are accurately processed. Moreover, the 2007 Filing Season
presented additional challenges. In addition to the usual tax law changes and updates that needed
to be incorporated into computer programs, forms, and instructions, there were three significant
tax provisions the IRS had to implement this season.
    •   One-time refund of the Telephone Excise Tax.
    •   Implementation of the split refund option.
    •   Late passage of the law extending some tax deductions.

Telephone Excise Tax Refund (TETR)
The TETR is a one-time refund, available on the 2006 Federal income tax return, designed to
refund previously collected long-distance Federal excise taxes. It is available to anyone who
paid long-distance taxes on landline, cell phone, or Voice over Internet Protocol service. The
IRS will refund taxes on long-distance service billed for the period after February 28, 2003, and
before August 1, 2006. Taxpayers request this refund when they file their Tax Year 2006 tax
returns.
Individual taxpayers can take a standard amount ranging from $30 to $60 based on the number of
exemptions claimed on their tax returns. For those claiming:

1
 The filing season is the period between January 1 and April 15 when most tax returns are filed.
2
 Calendar Year Projections of Individual Returns by Major Processing Categories (Document 6187), Fall 2006
Update, produced by the IRS Office of Research.
                                                                                                       Page 1
                                 Interim Results of the 2007 Filing Season




    •   One exemption, the standard refund amount is $30.
    •   Two exemptions, the standard refund amount is $40.
    •   Three exemptions, the standard refund amount is $50.
    •   Four exemptions or more, the standard refund amount is $60.
Individuals choosing the standard amount can simply fill in the amount on the various individual
income tax returns.3 People who do not need to file a return can use the Request for Refund of
Federal Telephone Excise Tax (Form 1040EZ-T) to choose the standard amount. Individuals
who decide not to use the standard amount must compute their refunds using the actual amounts
of taxes they paid. To choose this option, taxpayers can fill out the Credit for Federal Telephone
Excise Tax Paid (Form 8913) and attach it to their regular income tax returns.
The IRS estimated more than 157 million individuals would be eligible to receive this refund,
including 22 million “new” filers that had no other tax obligations but would be eligible to make
a claim using Form 1040EZ-T. It was estimated that 49 percent of the 22 million new
Forms 1040EZ-T would be filed electronically and 51 percent would be filed on paper.

Split refund option
Beginning in 2007, individual taxpayers can elect to have their Federal income tax refunds split
and electronically deposited into up to three accounts, such as checking, savings, or Individual
Retirement Arrangements. In addition, the accounts can be with up to three different United
States financial institutions, including banks, brokerage firms, or credit unions. This change
gives taxpayers more options for managing their refunds along with the speed and safety of
direct deposit. The IRS estimated taxpayers would choose to split their refunds on
approximately 3.8 million returns this year.
Taxpayers can continue to use the direct deposit line on Form 1040 to electronically send their
refunds to one checking or savings account or use the new Direct Deposit of Refund to More
Than One Account (Form 8888) to split their refunds among two or three different
accounts/financial institutions. The IRS will electronically deposit refunds to the accounts
designated by the taxpayer, providing the taxpayer supplies accurate account and routing
numbers and the financial institutions accept direct deposits for the type of accounts designated.
The IRS developed the split refund option to address concerns raised by members of Congress
and public interest organizations about the low savings rate of the United States population. The
IRS was urged to develop a way in which taxpayers could enhance their savings by depositing
some of their income tax refunds into savings or retirement accounts, while at the same time
allowing the taxpayers to receive part of their refunds for immediate needs.


3
 U.S. Individual Income Tax Return (Form 1040), U.S. Individual Income Tax Return (Form 1040A), Income Tax
Return for Single and Joint Filers With No Dependents (Form 1040EZ), or U.S. Nonresident Alien Income Tax
Return (Form 1040NR).
                                                                                                    Page 2
                                    Interim Results of the 2007 Filing Season




Legislation to extend expired tax deductions
The Tax Relief and Health Care Act of 20064 was passed by Congress and sent for the
President’s signature on December 8, 2006. Provisions in this legislation include extending the
college tuition and fees deduction, the State and local sales tax deduction, and the deduction for
educator expenses. As a result of the late passage of the legislation, these tax deductions were
not included on the 2006 Form 1040 and related instructions. Applicable cautions notifying
taxpayers of pending legislation were included in the appropriate tax products.
During December 2006 and January 2007, the IRS revised and tested the computer programming
needed for the legislative changes. It did not begin processing paper or electronic tax returns
claiming these tax deductions until February 3, 2007, to ensure the computer updates were
working as intended. This also allowed private vendors providing tax preparation software to
update their programs to include the extended tax deductions. In addition, because taxpayers
filing paper tax returns would not have forms with “dedicated” lines for these tax deductions, the
IRS had to ensure it correctly notified taxpayers about how to claim these tax deductions on their
returns. It issued instructions to taxpayers to use certain codes and enter the deduction claimed
on lines labeled as “other” on the Forms 1040 and 1040A and Form 1040 Itemized Deductions
and Interest (Schedule A) and Ordinary Interest Dividends (Schedule B). While these
instructions are helpful, there still may be confusion for taxpayers that may lead to errors on the
tax returns or some not claiming the deductions to which they are entitled.

Customer Account Data Engine (CADE)
The CADE consists of current and planned databases that will eventually replace the IRS Master
File5 as the official repository of taxpayer account information. The CADE is designed to post
information to taxpayers’ accounts daily rather than weekly, which will facilitate faster refunds
to taxpayers and provide IRS employees more up-to-date and accurate account information. This
ongoing project is being implemented in a series of successive releases, each with increased
functionality. Release 2 was planned to significantly increase the population of taxpayers
eligible to be included in the CADE. For the 2007 Filing Season, in addition to accepting almost
all Form 1040 types, the CADE will include returns with most filing statuses, certain dependents,
and the most common schedules. These changes were expected to significantly increase the
volume of returns posting to the CADE from the approximately 7 million returns posted during
Calendar Year 2006 to approximately 33 million this year.
These interim 2007 Filing Season results are being presented in accordance with Government
Auditing Standards. We will provide locations of the audit work and more detailed objectives
and scope in our final report on the 2007 Filing Season; we will also issue later this year a report

4
 Pub. L. No. 109-432, 120 Stat. 2922 (2006).
5
 The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                           Page 3
                              Interim Results of the 2007 Filing Season




covering many filing season-related topics. Detailed information on our audit objective, scope,
and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                          Page 4
                                       Interim Results of the 2007 Filing Season




                                         Results of Review

Processing Tax Returns
As of March 10, 2007, we had not identified any significant problems with the IRS’ processing
of individual income tax returns during the 2007 Filing Season. While we have some concerns
that are discussed in this report, in general, the IRS had accurately processed the returns received
and timely issued refunds. During the 2007 Filing Season, the IRS expects to process almost
136 million individual income tax returns. As of March 10, 2007, the IRS had received
approximately 60.9 million returns. Of those, approximately 45.5 million were filed
electronically (an increase of 4.9 percent from this time in 2006), and approximately 15.4 million
were filed on paper (a decrease of 10.9 percent from this time in 2006).6 Additionally, more
than 50.5 million refunds totaling approximately $128.7 billion had been issued. Of these,
39.1 million (77 percent of all refunds) were directly deposited to taxpayer bank accounts, an
increase of 5.6 percent compared to 2006. Figure 1 presents some tax return filing statistics.
                             Figure 1: Comparative Filing Season Statistics
                                                              2006 Actual      2007Actual
    Cumulative Filing Season Data                                                                % Change
                                                             As of March 10   As of March 10
    Individual Income Tax Returns

    Total Returns Received (in thousands)                       60,657           60,875              0.4%
        Paper Returns Received (in thousands)                   17,301           15,409            -10.9%
        Electronic Returns Received (in thousands)              43,356           45,466             4.9%
          Practitioner Prepared                                 31,010           32,156             3.7%
          Home Computer                                         12,346           13,342             8.1%
          Free File (Also Included in Home Computer Total)       2,616            2,471            -5.5%
    Refunds
     Total Number Issued (in thousands)                         50,656           50,515            -0.3%
     Total $ (in millions)                                     $122,752         $128,736            4.9%
     Average $                                                  $2,423           $2,548             5.2%
     Direct Deposit Number (in thousands)                       37,031           39,088             5.6%
     Total Direct Deposit $ (in millions)                      $101,009         $110,090            9.0%
Source: IRS 2007 Filing Season Weekly Reports. Totals may not compute to those presented due to rounding.


6
    These volumes do not include approximately 248,000 Forms 1040EZ-T.
                                                                                                       Page 5
                              Interim Results of the 2007 Filing Season




Increase in electronic filing
As of March 10, 2007, electronic filing had increased 4.9 percent compared to the same period
in 2006. While the number of taxpayers who electronically file from their home computers is up
8.1 percent this filing season, the number of taxpayers taking advantage of free online filing is
down 5.5 percent from 2006.
The IRS has seen a steady growth in the electronic filing of income tax returns over the past
several years. In Calendar Year 2003, 40.7 percent of the approximately 130.1 million
individual income tax returns received by the IRS were electronically filed. In Calendar
Year 2006, the percentage of electronically filed returns increased to 53.8 percent of the total
individual income tax returns received. While the IRS will not meet its goal of having
80 percent of all tax returns electronically filed by the end of 2007, it does expect to see
continued growth in electronic filing, although at a somewhat diminished growth rate from year
to year. For example, the IRS expects the electronic filing percentage of individual income tax
returns to reach 57.7 percent in 2007 and 60.6 percent in 2008.

Decline in the use of the Free File Program
The Free File Program provides taxpayers with access to free online tax preparation and
electronic filing services made possible through a partnership agreement between the IRS and
the tax software industry. Eligible taxpayers may prepare and electronically file their Federal
income tax returns using commercial online software provided by Free File Alliance members.
According to statistics provided by the Alliance, almost 2.8 million taxpayers used the Program
in its first year. In subsequent years, use of the Free File Program increased significantly, to
about 3.5 million taxpayers in 2004 and about 5.1 million taxpayers in 2005. However, use of
the Program declined in 2006 to approximately 3.9 million taxpayers. The decline in usage
appears to be continuing in 2007; only about 2.4 million taxpayers had used the Program as of
March 10, a decline of 5.5 percent from the same time period last year.
The IRS will be in a better position to evaluate the trends in the Free File Program after this
filing season. Calendar Year 2006 was the first year in which the IRS was able to include a Free
File indicator on taxpayer accounts. At the end of this filing season, the IRS will have 2 years’
worth of data that will provide the patterns and demographics of taxpayers using the Free File
Program. For example, the IRS will be able to determine the number of taxpayers who
converted from filing paper tax returns to filing electronic tax returns via the Program, the
number of taxpayers who reverted to filing paper returns, and the number of taxpayers who
convert to another method of electronic filing. This will help the IRS evaluate the extent to
which the Free File Program contributes to increasing the number of electronic tax returns filed.
Last year, approximately 18 percent of the taxpayers using the Program were new to electronic
filing, which would indicate the Program is contributing to the increase in electronic filing as
long as there is not a significant reversion to paper filing in subsequent years.


                                                                                           Page 6
                               Interim Results of the 2007 Filing Season




Delays in release of the CADE
The latest release of the CADE, Release 2.2, was to be placed into production in
mid-January 2007, in preparation for the 2007 Filing Season. With this Release, the IRS
expected to post approximately 33 million returns on the CADE. However, the Release did not
actually enter production until the first week of March due to technical problems, including a
delay in completing the required testing of the programs and an out-of-balance condition when
reconciling the number of returns posted at the end of the day. The implementation delay
prevented taxpayers who filed tax returns in January and February from receiving the benefit of
the faster CADE refund processing. In addition, the initial production Release did not include all
planned functionality, so the volume of returns posted to the CADE during the 2007 Filing
Season should be substantially lower than projected. The IRS now projects it will process
approximately 16 million to 19 million tax returns onto the CADE. As of March 10, 2007, the
CADE had posted only about 1.2 million tax returns.

Claims for the TETR
Through the week ending March 10, 2007, 36.8 million individual taxpayers had claimed the
TETR for a total of $1.7 billion. Of these taxpayers, more than 99 percent had claimed the safe
harbor amounts of between $30 and $60. However, the IRS had identified more than
16.8 million individual taxpayers who did not claim the TETR on their tax returns. Figure 2
shows TETR statistics as of March 10, 2007.
       Figure 2: TETR Statistics As of March 10, 2007 – Individual Taxpayers

    Number of Forms 1040EZ-T Filed                                           205,840

    Number of Tax Returns Claiming the TETR                               36,800,000

    Percentage of Tax Returns Claiming the TETR                                68.7%
    Percentage of Tax Returns Claiming the
                                                                               99.6%
    Standard TETR Amount
    Amount of TETR Claimed                                           $1,700,000,000

    Number of Tax Returns Not Claiming the TETR                           16,800,000
   Source: IRS TETR Performance Measures Reports.

The number of claims received for the one-time TETR has been lower than expected, especially
the number expected from taxpayers who were not otherwise required to file tax returns. The
IRS had received only 205,840 Forms 1040EZ-T, which is used by persons claiming the TETR
but who are not required to file an income tax return. This is substantially less than the 11.2
million Forms 1040EZ-T the IRS had expected by this time. Based on this trend, the total
receipts of Form 1040EZ-T will fall far short of the 22 million projected for the filing season.

                                                                                           Page 7
                                  Interim Results of the 2007 Filing Season




The IRS has issued press releases and publicized use of the Form 1040EZ-T for persons who
want to claim the TETR but are otherwise not required to file an income tax return; however,
despite this publicity, few people are filing Form 1040EZ-T. Because there are far fewer Forms
1040EZ-T being filed than expected, the IRS has revised its projections for the remainder of the
filing season. The IRS is now projecting the number of Forms 1040EZ-T receipts to be about
637,000 through May 4, 2007.7
Some of the TETR claims are obviously incorrect or potentially abusive. Through March 10,
2007, the IRS had received over 46,000 claims for amounts over $500. The TETR and interest
reported on these claims totaled more than $63 million. For many of these excessive claims, the
taxpayer’s long distance telephone bills would have had to have amounted to more than
25 percent of the taxpayer’s total annual incomes to justify the TETR claims. Moreover, some of
these excessive claims were so high in relation to the taxpayers’ incomes that the taxpayers
would have to have paid more than their total yearly incomes for long-distance or bundled
telephone services to justify the claims.
Many taxpayers filing large claims appear to be entering the total amount billed for long-distance
and bundled services rather than just the Federal excise tax associated with those amounts. The
IRS came to this conclusion early in the filing season and addressed it in a press release in late
January 2007. Instructions for Form 8913 expressly state that taxpayers are to claim the amount
of Federal excise tax on long-distance or bundled services only. However, the column headings
for taxpayers to enter those amounts are labeled, “Long Distance Service” and “Bundled
Service.” Taxpayers and preparers may be misunderstanding those column headings. We will
continue to monitor this issue during the filing season.

Limited use of split refunds
While the majority of taxpayers are choosing to have the refunds directly deposited to their
checking or savings accounts (77 percent of refunds issued through March 10, 2007, were direct
deposits), the number of taxpayers choosing to split their refunds into 2 or 3 different accounts
was much lower than anticipated at this point in the filing season. We identified only
52,696 taxpayers who had attached Forms 8888 to split refunds; this represents only one-tenth
of 1 percent of the direct deposits. The split refunds totaled $184.6 million, or an average of
$3,503 per refund. The IRS had estimated 3.8 million Forms 8888 would be filed this year;
however, it now estimates the actual number will be significantly lower. We have not
determined why so few taxpayers are taking advantage of the split refund option, but we will
continue to monitor and analyze this throughout the filing season.




7
 The “Lower” projection has the IRS receiving only 315,208 Forms 1040EZ-T; the “Most Likely” projection is
637,030, and the “Optimistic” projection is 7,347,546.
                                                                                                       Page 8
                                   Interim Results of the 2007 Filing Season




Delayed processing of tax returns with extended tax deductions
The IRS did not begin processing tax returns claiming the educator expense, tuition and fees, and
State sales tax deductions until February 3, 2007, to ensure the computer programming updates
were working as intended. The IRS stated this delay would not affect the vast majority of
taxpayers because only about 930,000 of the tax returns filed by February 1, 2006, had a claim
for any of these 3 deductions. Our results as of March 10, 2007, indicated the IRS’ delay in
processing returns with these deductions had not caused any
problems, and there did not appear to be a significant
number of errors related to the use of the deductions. We
identified the following approximate totals:8
     •   Claiming the State Sales Tax deduction – 2 million
         taxpayers.
     •   Claiming the Tuition and Fees deduction – 1 million
         taxpayers.
     •   Claiming the Educator Expense deduction –
         854,000 taxpayers.

Providing Customer Service
                                                                             The IRS is developing a
Taxpayers have several options to choose from when they             5-year plan to improve
need assistance from the IRS, including telephone assistance           taxpayer service.
through the toll-free telephone lines, face-to-face assistance
at the Taxpayer Assistance Centers (TAC), and the
Volunteer Income Tax Assistance (VITA) and Tax Counseling for the Elderly Programs.
Taxpayers can also get self-assistance through the IRS public Internet site, IRS.gov.
The IRS is finalizing its 5-year plan, called the Taxpayer Assistance Blueprint, to improve
taxpayer service. The plan should include long-term goals and outline the services the IRS
should provide to improve service to taxpayers. The Taxpayer Assistance Blueprint Phase I
Report was issued April 24, 2006. The Phase II Report is due some time in Fiscal Year 2007.
The Phase I Report identifies strategic improvement themes by researching IRS service relative
to taxpayers’ needs and preferences. IRS officials state the Phase II Report will validate those
themes through further research of taxpayers’ service preferences and will develop the 5-year
plan for service delivery. We are planning a strategy to assess the Taxpayer Assistance
Blueprint.



8
 The actual number of taxpayers may be less than the total volumes shown because a taxpayer could claim two or
more of the three deductions listed.
                                                                                                        Page 9
                                 Interim Results of the 2007 Filing Season




In addition, we are currently conducting an audit to assess the taxpayer experience during the
2007 Filing Season. We will determine the quality of customer service the IRS provides to
taxpayers who seek assistance when preparing their tax returns. This includes assistance at the
TACs; assistance through the toll-free telephone lines; and self-help assistance on IRS.gov and
with IRS tax forms, instructions, and publications. We plan to report the results of this review in
August 2007.

Face-to-face assistance at the TACs
The TACs are walk-in sites where taxpayers can obtain answers to both account and tax law
questions, as well as receive assistance in preparing their tax returns. The IRS plans to assist
more than 6 million taxpayers in Fiscal Year 2007. As of March 10, 2007, the TACs had served
1.8 million taxpayers during this filing season.
Figure 3 shows the number of contacts by product line at the TACs for Fiscal Years 2004
through 2007. The Field Assistance Office does not maintain historical data by filing season.
              Figure 3: Contacts for Fiscal Years 2004–2007 (in millions)

                                                                                    Fiscal Year
                                      Fiscal Year       Fiscal Year   Fiscal Year
   Contacts/Product Lines                                                              2007
                                         2004              2005          2006
                                                                                    (Projected)

   Tax Returns Prepared                     .5                .4          .4            .5
   Tax Law Contacts                        1.4               1.2          .7            .7
   Accounts Contacts                       2.5               2.5          2.7           2.8
   Forms Contacts                          1.8               1.6          1.4           1.2
   Other Contacts                          1.5               1.4          1.3           1.3

   Totals                                  7.7               7.1          6.5           6.5
  Source: Field Assistance Office management information reports.

The IRS expected to serve more taxpayers this filing season because of the TETR. The Field
Assistance Office, which is responsible for the TAC program, did not plan to use staff from other
IRS offices but planned to hire 135 temporary employees to support the filing season. However,
it was able to hire only about 120 temporary employees and expected staffing shortfalls in
selected TACs. As in prior years, employees are traveling to those TACs with no permanently
assigned assistors to provide part-time assistance to ensure all TACs provide service. The IRS
had reported taxpayers have generally waited 30 or fewer minutes for assistance.
In Fiscal Year 2006, the IRS began the final implementation phase of a standardized quality
measurement system to measure the quality of taxpayer service at its TACs. Prior to this, the
IRS had used our audit results to measure the accuracy of assistors’ responses to tax law

                                                                                              Page 10
                                      Interim Results of the 2007 Filing Season




questions. Figure 4 presents the results of our testing at the TACs since Fiscal Year 2002. The
percentages represent the correct responses to tax law questions.
    Figure 4: Results of the Treasury Inspector General for Tax Administration’s
         Visits to Taxpayer Assistance Centers (2002-2006 Filing Seasons)

                               100%
                               90%
                               80%
                                                   70%        67%        66%              73%
                               70%
                 Percentage    60%
                  of Correct          51%
                  Answ ers     50%

                               40%
                               30%
                               20%
                                        2002      2003        2004       2005       2006
                                                         Filing Season

               Source: Treasury Inspector General for Tax Administration audit results.

The IRS plans to report tax law and tax account accuracy rates for Fiscal Year 2007; this will be
the baseline year. As of March 10, 2007, the Field Assistance Office had reported a 78 percent
accuracy rate for tax law and tax account questions.
The Field Assistance Office is implementing a system to measure the quality of face-to-face
assistance. No other Federal Government agency is using a system that measures the quality of
face-to-face assistance to the extent of the system the IRS is implementing. This measurement
system, called the Embedded Quality Business Integration, is a centralized data collection tool
that uses Contact Recording and the Q-MATIC System.9 Contact Recording automatically
records the audio portion of a customer contact and synchronizes it with an employee’s computer
screen activity. The Q-MATIC System signals the recording to begin at the start of each contact
and turns it off at the appropriate time. Group managers critique a selection of contacts to
evaluate individual employee performance and identify training needs. Quality reviewers use
statistically valid samples of selected contacts to verify the accuracy of employee responses to
taxpayers, which results in customer accuracy reported internally and externally. The samples
will also be used to analyze trends, identify errors, and assist the Field Assistance Office with
quality improvement efforts.


9
 Contact Recording captures the audio portion of the employee/customer interaction, synchronized with computer
screen activity, for replay and quality review. The Q-MATIC System is an automated queuing system used to
control the flow of taxpayers waiting for assistance.
                                                                                                       Page 11
                                   Interim Results of the 2007 Filing Season




Contact Recording has been installed at 126 TACs. The IRS will be unable to project the
accuracy rates to all 401 TACs until installation is completed, but the statistical sample will
provide a good indication of the accuracy rates at 126 of the 401 TACs. We are completing an
audit of the Contact Recording implementation and plan to report the results in July 2007.

Toll-Free telephone assistance
Each filing season, approximately 15 million taxpayers contact the IRS by calling the various
Customer Account Services function Toll-Free telephone assistance lines seeking assistance in
understanding the tax law and meeting their tax obligations. For the 2007 Filing Season as of
March 10, 2007,10 the IRS had planned to use approximately 2,007 Full-Time Equivalents11 at
24 call centers located throughout the United States and Puerto Rico to meet the needs of
taxpayers.
In the 2006 Filing Season, the IRS Level of Service was 82 percent. The Level of Service is the
primary measure of service to taxpayers. It is the relative success rate of taxpayers who call for
services on the IRS toll-free telephone lines. As of March 10, 2007, the IRS had reported:
•    An 83 percent Level of Service for the 2007 Filing Season. For this period, it had planned an
     81.8 percent Level of Service.
•    An Average Speed of Answer of 252 seconds (4.2 minutes), an increase of 38.5 percent from
     the 2006 Filing Season. It had planned for a 263 second Average Speed of Answer for this
     filing season.
•    Accuracy rates through February 2007 of 88.7 percent for tax law questions and 92.9 percent
     for tax accounts.
Figure 5 presents a year-to-date comparison of select toll-free telephone measures and service
indicators.




10
   The 2007 Filing Season results are through the week ending March 10, 2007. The 2006 Filing Season data are as
of March 11, 2006, unless specified otherwise.
11
   A Full-Time Equivalent is a measure of labor hours. One Full-Time Equivalent is equal to 8 hours multiplied by
the number of compensable days in a particular fiscal year. For Fiscal Year 2006, 1 Full-Time Equivalent was equal
to 2,080 staff hours. For Fiscal Year 2007, 1 Full-Time Equivalent is equal to 2,080 staff hours.
                                                                                                         Page 12
                                      Interim Results of the 2007 Filing Season




                   Figure 5: Performance Measures and Service Indicators
                              for the 2004–2007 Filing Seasons12

                                                  2004               2005                2006               2007
                                                Through            Through            Through             Through
                                                March 10           March 10           March 10            March 10
Strategic Plan Measures
Level of Service                                 84.3%               82.6%              84.2%              83.0%
Average Speed of Answer
                                                   199                235                 182                252
(seconds)
Automated Calls Answered
                                                  18.9                13.9               13.0                12.3
(millions)
CAS Assistor Calls Answered
                                                  10.1                 9.4                8.7                8.4
(millions)
CAS Assistor Services Provided
                                                  11.9                11.2               10.3                10.1
(millions)
Service Indicators
Abandon Rate13                                   10.0%               11.5%               8.9%              12.3%
Average Handle Time (seconds)                     516                 526                 567               591
Assistor Availability                             9.2%               5.9%                6.9%               6.3%
Primary Abandons14 (millions)                      4.5                3.6                 3.8                4.2
Secondary Abandons (millions)                      1.5                1.5                 1.1                1.5
Total Blocked Calls15 (millions)                   0.5                0.5                 0.6                0.3
Resource Indicators
Total Toll-Free Program
Full-Time Equivalents (Direct)                   1078.0              975.0              962.0               963.2
Total Toll-Free Program
Full-Time Equivalents (Direct +                 1,988.6             1,840.6            1,815.6             1,953.6
Overhead)
Source: IRS Enterprise Telephone Data Warehouse. CAS = Customer Account Services.


 12
    The IRS averages its measures throughout the year; it does not weight them.
 13
    This is the Secondary Abandon Rate. The IRS refers to calls that disconnect after reaching the queue as
 secondary abandons.
 14
    The IRS refers to calls that disconnect before reaching the queue as primary abandons.
 15
    A blocked call is one that can not be connected immediately because either no circuit is available at the time the
 call arrives (i.e., the taxpayer receives a busy signal) or the system is programmed to block calls from entering the
 queue when the queue backs up beyond a defined threshold (i.e., the taxpayer receives a recorded announcement to
 call back at a later time). This is a derived figure from the IRS Executive Level Summary Reports designed to
 provide daily information; these Reports are not considered official reports of record.
                                                                                                              Page 13
                                  Interim Results of the 2007 Filing Season




The performance measures and service indicators are currently lower than they were in
the 2006 Filing Season
For the 2007 Filing Season (as of March 10, 2007), the IRS had answered about 91 percent of the
planned 9.3 million assistor-answered calls. It had attained an 83 percent Level of Service and
had planned for an 81.8 percent Level of Service, which is 1.2 percentage points lower than the
actual 2006 Filing Season Level of Service. Also, the IRS had planned for 13.6 million
automated calls answered and had answered 12.3 million automated calls.
The IRS is taking approximately 70 seconds longer (38.5 percent) to answer taxpayers’ calls
when compared to the 2006 Filing Season. The Average Speed of Answer is currently at
252 seconds compared to a planned 263 seconds. This appears to have affected the Abandon
Rate, which increased 3.4 percentage points (38.2 percent) from the 2006 Filing Season.
The IRS had developed and implemented a Tactical Plan to increase each daily planned Level of
Service by 2 percent or 3 percent, to be in a better position to obtain the Fiscal Year 2007
82 percent planned Level of Service. For example, it had planned for calls from taxpayers
seeking assistance relating to the TETR. As of March 10, 2007, these calls had not materialized,
and the IRS had seen only 2 percent of the planned TETR demand. It has taken steps to move
assistors from the TETR applications to the account applications where the demand is high. This
action provided the IRS with an opportunity to move trained assistors to work the paper
inventory.
The TETR automated message
The IRS added 550 additional Full-Time Equivalents to handle the expected increase in calls
about the TETR. In addition, to help alleviate assistors’ time, the first menu item callers hear
when calling the 1-800-829-1040 toll-free telephone line is about the TETR. After the welcome
message, callers hear, “If you are calling about how to request the Telephone Excise Tax Refund,
press 7.” When callers choose this option, they are provided three additional options:
     •   For all individuals except those who file a business Schedule C, E, or F16 or for
         individuals who normally do not file a return, press 1.
     •   For individuals who file a Form 1040 return with a business Schedule C, E, or
         F, press 2.
     •   For corporations, partnerships, trusts, or tax-exempt organizations, press 3.




16
  Profit or Loss From Business (Schedule C), Supplemental Income and Loss (Schedule E), Profit or Loss From
Farming (Schedule F).
                                                                                                      Page 14
                                     Interim Results of the 2007 Filing Season




Once callers make their selections, they hear a detailed message on how to file for the TETR.
However, in late February when the IRS experienced router problems and increased
contingencies, it temporarily reduced the recording to open up telephone lines. It has since
restored the recording to its original length.
As of March 10, 2007, 349,130 callers had chosen to hear the TETR recorded message by
pressing 7, and 287,251 (82.3 percent) callers had selected 1 of the 3 additional options to listen
to at least a portion of the message. Nevertheless, after the recording ends, callers are not
returned to the main menu so they can make another selection–instead the call is ended. We
believe callers should be given the option to return to the main menu, which in our experience is
better taxpayer service and is common practice when using customer service telephone lines.
IRS officials stated that, given the unusual circumstances, abbreviated lead time, and one-time
nature of the TETR Program, they were concerned the potential volume of customers calling
about the TETR could be very high and these callers could have a negative impact on the
customers calling for assistance about other issues. The IRS’ goal was to lead customers to
venues other than the toll-free telephone assistors.
After developing and internally testing the TETR announcement, the IRS was confident that the
vast majority of customers would obtain the information they needed from the announcement or
via IRS.gov and would not need to speak with an assistor. To discourage unnecessary referrals
to assistors, the IRS designed the message without an option to go back to the main menu or to
an assistor.

Tax preparation assistance at volunteer sites
The VITA Program plays an increasingly important role in the IRS’ efforts to improve taxpayer
service and facilitate participation in the tax system. It provides no-cost Federal tax return
preparation and electronic filing to underserved taxpayer segments, including low-income,
elderly, disabled, and limited-English-proficient taxpayers. These taxpayers are frequently
involved in complex family situations that make it difficult to correctly understand and apply tax
law.
For the 2007 Filing Season, we are including the AARP-sponsored17 Tax Counseling for the
Elderly Program sites in our testing of VITA sites. We plan to visit 39 VITA sites to determine
if taxpayers received quality service, including the accurate preparation of their individual
income tax returns. We developed scenarios designed to present volunteers with a wide range of
tax law topics that taxpayers may have needed assistance with when preparing their tax returns.
These scenarios included the characteristics (e.g., income level, credits claimed) of tax returns
typically prepared by the VITA Program volunteers based on an analysis of the Tax Year 2005
VITA-prepared tax returns.


17
     The AARP is a nonprofit, nonpartisan membership organization for people age 50 and over.
                                                                                                Page 15
                                   Interim Results of the 2007 Filing Season




As of March 10, 2007, we had 18 tax returns prepared with a 56 percent accuracy rate, compared
to the 39 percent accuracy rate reported for the 2006 Filing Season. Our observations are that
volunteers did not always use the tools and information available when preparing returns. We
will report our final results in August 2007.
Figure 6 presents comparisons of VITA Program activities for the 2006 and 2007 Filing Seasons.
      Figure 6: Year-to-Date Comparisons of the 2006 and 2007 Filing Seasons
                              Through March 10, 2007

                                                    2006 Actual         2007 Actual        % Change

       Volunteer Return Preparation
                                                         1.2                 1.3             7.6%18
       (in millions)
       Volunteer Electronic Filing                      93.8%               94.4%             0.6%

      Source: IRS 2007 Filing Season Weekly Reports.

Self-assistance through IRS.gov
IRS.gov continues to be one of the most visited Internet sites in the world, especially during the
filing seasons. As of the week ending March 10, 2007, the IRS had reported a 9.1 percent
increase in the number of visits to IRS.gov over the same period in the prior filing season. It had
also reported a 21.9 percent increase in the number of taxpayers obtaining their refund
information online via the “Where’s My Refund” option found on IRS.gov. Figure 7 shows the
year-to-date comparisons of various IRS.gov activity levels for the 2006 and 2007 Filing
Seasons.
       Figure 7: Year-to-Date Comparisons of the 2006 to 2007 Filing Seasons
                        Through March 10, 2007 (in millions)

                                            2006 Actual         2007 Actual         % Change

             IRS.gov Visits                      76.4                83.3              9.1%19
             “Where’s My Refund?”                14.6                17.8              21.9%
           Source: IRS 2007 Filing Season Weekly Reports.



18
   Percentages were calculated before numbers were rounded to millions. Actual numbers are 1,206,185 for 2006
and 1,297,484 for 2007.
19
   Percentages were calculated before numbers were rounded to millions. Actual numbers are 76,448,880 for 2006
and 83,364,615 for 2007.
                                                                                                      Page 16
                               Interim Results of the 2007 Filing Season




                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to provide selected information related to the IRS filing
season (the period between January 1 and April 15 when most tax returns are filed results) as of
March 10, 2007. To accomplish our objective, we:
I.     Identified new tax legislation and administrative changes for the 2007 Filing Season that
       will have the greatest potential effect on individual taxpayers.
       A. Reviewed tax forms, instructions, and publications to determine whether they were
          accurately updated with the changes.
       B. Reviewed information on the IRS.gov web site instructing taxpayers how to complete
          tax returns that include any of these new changes.
II.    Determined the volumes of individual tax returns the IRS is expecting to receive during
       the 2007 Filing Season.
       A. Obtained and reviewed the IRS Calendar Year Projections of Individual Returns by
          Major Processing Categories (Document 6187), Fall 2006 Update, produced by the
          IRS Office of Research.
       B. Obtained from the IRS any changes to these projections based on current filing
          volumes of specific tax forms.
III.   Identified interim volumes of paper and electronically filed returns.
       A. Obtained statistics from the IRS Weekly Filing Season reports that provide a
          year-to-date comparison of scheduled return receipts to actual return receipts. They
          also provide a comparison to 2006 receipts for the same time period.
       B. Obtained statistics from the IRS weekly TETR Performance Data reports.
IV.    Reviewed an email alert and the IRS’ response to TETR issues identified by the Treasury
       Inspector General for Tax Administration Small Business and Corporate Programs
       business unit.




                                                                                           Page 17
                               Interim Results of the 2007 Filing Season




V.      Obtained interim volumes of returns filed with late legislation issues and split refunds.
        A. Identified interim volumes of returns claiming the State sales tax, tuition and fees,
           and educator expense deductions by analyzing weekly extracts of the Individual
           Return Transaction File.
        B. Identified interim volumes of returns requesting a split refund by analyzing weekly
           extracts of the Individual Return Transaction File.
VI.     Obtained background information related to the CADE project.
        A. Identified relevant background information from prior Treasury Inspector General for
           Tax Administration reports.
        B. Obtained the CADE Release Content Master Plan document, which contained
           original volume projections and release functionality.
        C. Obtained the CADE Weekly Production Report for the week ended March 10, 2007,
           which contained the current CADE production statistics.
VII.    Obtained implementation plans related to the CADE Release 2.2.
        A. Obtained the Release 2.2 implementation schedule and weekly implementation status
           reports from the CADE Project Office.
        B. Obtained information related to the cause and effect of implementation delays.
           1. Reviewed information related to the causes of the Release 2.2 implementation
              delay from the CADE Project Office. This information was obtained from the
              Wage and Investment Division Business Assurance Executive for the CADE.
           2. Obtained revised volume projections based on the Release 2.2 implementation
              delay from the CADE Project Office.
VIII.   Determined the impact of the October 2005 Free File Agreement between the IRS and the
        Free File Alliance on electronic filing.
        A. Obtained and reviewed the October 2002 Free File Agreement and the October 2005
           Free File Agreement to identify changes to the Agreement.
        B. Obtained and reviewed the IRS Weekly Filing Season Report, which provides a
           year-to-date comparison of electronic and paper tax return filing for the 2006 and
           2007 Filing Seasons through March 10, 2007.
        C. Obtained and analyzed taxpayer data for the taxpayers who used the Free File
           Program during the 2006 filing season.



                                                                                            Page 18
                              Interim Results of the 2007 Filing Season




IX.     Determined the focus and status of the IRS Taxpayer Assistance Blueprint.
        A. Obtained and reviewed the Taxpayer Assistance Blueprint Phase I Report.
        B. Identified results derived from the Taxpayer Assistance Blueprint Phase I Report and
           the focus of Phase II.
X.      Obtained interim results for the IRS TAC Program.
        A. Obtained from the IRS Field Assistance Office statistics on taxpayers served as well
           as information about Contact Recording and quality measures.
        B. Obtained the IRS Weekly Filing Season Report, which provides a year-to-date
           comparison of various TAC activity levels for the 2006 and 2007 Filing Seasons
           through March 10, 2007.
XI.     Obtained interim results for the IRS Toll-Free Telephone Assistance Program.
        A. Obtained and reviewed Performance Templates and Executive Level Summary
           reports from the Enterprise Telephone Data Warehouse for results as of
           March 10, 2007.
        B. Obtained and reviewed information relative to the TETR from IRS officials.
XII.    Obtained interim results for the VITA Program.
        A. Obtained interim results from Treasury Inspector General for Tax Administration
           visits to VITA sites. A total of 18 tax returns had been prepared as of March 10,
           2007.
        B. Obtained the IRS Weekly Filing Season Report, which provides a year-to-date
           comparison of various VITA Program activity levels for the 2006 and 2007 Filing
           Seasons.
XIII.   Obtained interim results for IRS self-assistance through IRS.gov.
        A. Obtained the IRS Weekly Filing Season Report, which provides a year-to-date
           comparison of various IRS.gov activity levels for the 2006 and 2007 Filing Seasons.




                                                                                         Page 19
                            Interim Results of the 2007 Filing Season




                                                                           Appendix II

                Major Contributors to This Report

Michael McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta Cook, Director
Scott Macfarlane, Director
Deann Baiza, Audit Manager
Richard Calderon, Audit Manager
Paula Johnson, Audit Manager
Frank Jones, Audit Manager
Russell Martin, Audit Manager
Gary Young, Audit Manager
Deborah Drain, Senior Auditor
Jack Forbus, Senior Auditor
Tina Parmer, Senior Auditor
Steven Stephens, Senior Auditor
Jean Bell, Auditor
Roberta Fuller, Auditor




                                                                                  Page 20
                             Interim Results of the 2007 Filing Season




                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Business Modernization Executive, Wage and Investment Division SE:W:M
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Electronic Tax Administration, Wage and Investment Division SE:W:ETA
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Joint Operation Center, Wage and Investment Division SE:W:CAS:JOC
Director Stakeholder Partnerships, Education, and Communication, Wage and Investment
Division SE:W:CAR:SPEC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 21
